Audit Report GR-90-06-003

Office of Community Oriented Policing Services Methamphetamine Initiative Grants 
Awarded to the Pierce County Alliance, Tacoma, Washington

Audit Report GR-90-06-003


January 2006
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of three grants, awarded by the U.S. Department of Justice, Office of Community Oriented Policing Services (COPS), to the Pierce County Alliance (the Alliance), located in Tacoma, Washington.  The Alliance is a nonprofit corporation whose purpose is to plan, organize, operate, establish, and evaluate human and social services for the residents of Pierce County.  The majority of the Alliances funding is received under contracts and grants with the State of Washington, other government agencies, and various private organizations.  The overall purpose of these COPS grants is to assist state and local law enforcement agencies in reducing the production, distribution, and use of methamphetamine.  As of January 23, 2004, the COPS office awarded the Alliance three grants totaling $8,959,454.

We tested the Alliances accounting records to determine if reimbursements claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grants.

Of the $5,898,006 expended as of December 31, 2004, we tested transactions totaling $3,804,405.  Of the transactions tested, we found the following:1

Most of the law enforcement agencies receiving grant funds for the hiring of new officers charged the grant for experienced officers rather than new hires.  As a result, we are questioning $610,813 for grant 2002-CK-WX-0208 and $414,934 for grant 2003-CK-WX-0070.
 
	Some of the law enforcement agencies receiving grant funds for the hiring of new officers could not provide documentation that the grant funding supplemented local funding rather than supplanting it.  As a result, we are questioning $253,347 for grant 2002-CK-WX-0208 and $186,235 for grant 2003-CK-WX-0070.2
The Alliance could not provide supporting documentation for some of the non-personnel grant expenditures.  As a result, we are questioning $363,727 for grant 2002-CK-WX-0208 and $585,042 for Grant 2003-CK-WX-0070.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix II. 




Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix I for a breakdown of our dollar-related findings and for definitions of questioned costs.
	
	This finding relates to the same officer personnel costs that we reviewed and questioned in our first finding where experienced officers rather than new hires were billed to the grants.  The difference in questioned costs between the two findings resulted from the fact that some agencies that billed for experienced officers were able to show that grant funds supplemented rather than supplanted local funds.